No. 20-941

IN THE SUPREME COURT OF THE UNITED STATES

GREGORY ATKINS, et al.,
Petitioners,

Vv.
DR. KENNETH WILLIAMS,

Medical Director, Tennessee Department of Correction, in his official capacity,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Sixth Circuit
CERTIFICATE OF COMPLIANCE

I, Sarah K. Campbell, counsel of record for Respondent, Dr. Kenneth
Williams, and a member of the Bar of this Court, hereby certify that Respondent’s
Brief in Opposition was formatted under the standards set forth in Supreme Court
Rule 33.2, as allowed by this Court’s order of April 15, 2020, and complies with that
Rule because it is fewer than 40 pages, excluding the parts of the brief enumerated
in Rule 33.1(d). The brief also complies with the word limits of Supreme Court Rule
33.1 because it contains 8,988 words, excluding the parts of the brief enumerated in

Rule 33.1(d).
SARAH K. CAMPBELL /

Associate Solicitor General
P.O. Box 20207

Nashville, TN 37202

(615) 532-6026
sarah.campbell@ag.tn.gov

Counsel for Respondent

March 12, 2021
